                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: 1-03120071                                                                    Page 1 bf 1


                                                                                                   d
                 As part of a review of awards for conferences, workshops, and symposia, we requested
         information about a grant' from the grantee.2 The proposal requested travel, lodging, and
         subsistence for speakers presenting at a workshop. The grant provided $25,000, entirely in
         participant support; in the proposal, the grantee promised to provide, and the award letter
                                                                                                     'I
         specified, $25,000 in cost-sharing. We wrote to the grantee requesting grant records and
         information about any program income, which they provided.

                 Review of the materials provided by the grantee raised three issues: (1) registration and
         other fees that were collected were not used to defiay conference expenses; (2) there appeded to
         have been no cost sharing; and (3) several charges appeared to be either unrelated to the
         conference, duplicative, or unsupported. We queried the grantee about these issues, and the
         grantee responded by providing support for one charge, noting that the duplicative charge was in
         error, agreeing that the other charges were unallowable, agreeing that the program income should
         have been credited before NSF grant funds were expended, agreeing that 50% cost sharing
         should have been provided, and concluding "that $10,568.5 1 needs to be repaid" to NSF. We
         subsequently received a check payable to NSF for that amount, which we forwarded to NSF.
                                                                                                      'I
                   Accordingly, this case is closed.




NSF OIG Fonn 2 (1 1/02)                                                                                11
